Report No. D-2007-075   March 22, 2007




    Department of the Army Purchases
       from Governmental Sources
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DAO                   Defense Accounting Office
DFARS                 Defense Federal Acquisition Regulation Supplement
DFAS                  Defense Finance and Accounting Service
DFAS-IN               Defense Finance and Accounting Service Indianapolis
FAR                   Federal Acquisition Regulation
FMR                   Financial Management Regulation
GSA                   General Services Administration
IG                    Inspector General
MIPR                  Military Interdepartmental Purchase Request
MOA                   Memorandum of Agreement
MOU                   Memorandum of Understanding
NULO                  Negative Unliquidated Obligation
PEO                   Program Executive Office
               Department of Defense Office of Inspector General
Report No. D-2007-075                                                   March 22, 2007
  (Project No. D2006-D000FI-0088.000)

                       Department of the Army Purchases
                          from Governmental Sources

                                 Executive Summary

Who Should Read This Report and Why? This report should be of interest to
Congress; the Under Secretary of Defense (Comptroller)/Chief Financial Officer; the
Secretary of the Army; the Assistant Secretary of the Army (Financial Management and
Comptroller); and the Director, Defense Finance and Accounting Service. The users of
this audit report will benefit from the review of the controls over Army purchases from
other governmental agencies and will gain information that can improve public
accountability and decision-making.

Background. This is the third in a series of reports discussing DoD use of interagency
and interservice support. In accordance with Public Law 108-375, the Ronald Reagan
National Defense Authorization Act of FY 2005, Section 802, “Internal Controls for
Department of Defense Procurements Through [General Services Administration] GSA
Client Support Centers,” October 28, 2004, the DoD Office of Inspector General and the
General Services Administration conducted an interagency audit of DoD purchases made
through the General Services Administration. In that audit, the DoD Office of Inspector
General determined that guidance was unclear and that fund mismanagement and a lack
of acquisition planning for the funds transferred to the General Services Administration
caused between $1 billion and $2 billion of DoD funds to either expire or otherwise be
unavailable to support other DoD operations. That finding prompted the DoD Office of
Inspector General to conduct this series of audits on DoD use of interagency and
interservice support. The first report in this series, DoD Inspector General Report
No. D-2006-102, “Marine Corps Governmental Purchases,” July 31, 2006, discusses the
lack of adequate internal controls over outgoing and incoming military interdepartmental
purchase requests (MIPRs) at the Marine Corps. The second report in this series
addresses internal controls over Department of the Navy MIPRs. This report addresses
internal controls over Department of the Army MIPRs.

Results. The Army did not have adequate internal controls over purchases from
governmental sources. Specifically, Army internal controls did not ensure that outgoing
MIPRs were properly initiated, prepared, executed, and monitored and that incoming
MIPRs were properly accepted. The Army could not ensure that the purchases were in
the best interest of the Government and properly monitored and tracked. In addition, the
Army had limited assurance that Army organizations complied with Federal laws and
DoD regulations and conformed to Federal appropriations law. The Assistant Secretary
of the Army (Financial Management and Comptroller), in coordination with the Assistant
Secretary of the Army (Acquisition, Logistics, and Technology), should direct the
appropriate Army organizations to initiate preliminary reviews and corrective actions for
MIPRs that potentially violated the Antideficiency Act. In addition, the Assistant
Secretaries should direct the Program Executive Officer Soldier to initiate an
investigation of the MIPR that was signed by a contractor to determine the extent to
which Federal Acquisition Regulation 1.601 and sections 1501 and 1502(a), title 31,
United States Code were violated. The Assistant Secretaries should also develop, issue,
and enforce standard operating procedures to ensure that Army organizations properly
enforce Federal laws and DoD regulations when initiating, preparing, executing,
monitoring, and accepting MIPRs (finding A).

The Army Management Control Program was ineffective and did not identify internal
control weaknesses related to outgoing and incoming MIPRs. As a result, internal
controls were not adequate to ensure that MIPRs were properly initiated, prepared,
executed, and monitored by the requesting organization, and accepted by the performing
organization. The Assistant Secretary of the Army (Financial Management and
Comptroller) should direct Army organizations that use MIPRs for purchasing goods and
services to determine whether MIPRs should be either an assessable unit or part of
another assessable unit. Additionally, the Assistant Secretary should direct Army
organizations that use MIPRs to perform a general assessment of internal controls over
processing MIPRs to determine their effectiveness and reliability. Further, the Assistant
Secretary should determine whether the internal control weaknesses identified in this
report meet the criteria for a material weakness (finding B). See the Findings section of
the report for the detailed recommendations.

Management Comments and Audit Response. The Deputy Assistant Secretary of the
Army (Financial Operations) agreed to work with others in the DoD financial and
acquisition communities to develop procedures that will ensure adequate controls over
MIPRs. However, the Deputy Assistant Secretary’s comments were only partially
responsive because he did not state whether the procedures would specifically address all
deficient areas. Neither did he say whether he directed the appropriate Army
organizations to initiate preliminary reviews and corrective actions for MIPRs that
potentially violated the Antideficiency Act or that were signed by a contractor. In
addition, he did not state whether recommended actions would be taken to address
deficiencies in the Army Management Control Program. We request that the Army
provide additional comments on the final report by April 22, 2007.

Although not required to comment, the Program Executive Officer Soldier stated that his
office amended the original MIPR that was signed by a contractor to reflect the signature
of an authorized individual. In addition, the Army Space Program Office provided
information related to our concerns with its MIPRs and the status of actions taken to
improve budget execution tracking and the posting of obligations. See the Findings
section of the report for a discussion of management comments and the Management
Comments section of the report for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                                              i

Background                                                                     1

Objectives                                                                     2

Review of Internal Controls                                                    2

Findings
     A. Adequacy of Army Internal Controls over Governmental Purchases         4
     B. Army Management Control Program for Military Interdepartmental
          Purchase Requests                                                   16

Appendixes
     A.    Scope and Methodology                                              19
     B.    Prior Coverage                                                     23
     C.    Glossary of Technical Terms                                        25
     D.    Federal Laws and DoD Regulations                                   28
     E.    MIPR Issues                                                        33
     F.    Report Distribution                                                43

Management Comments
     Assistant Secretary of the Army (Financial Management and Comptroller)   45
     Program Executive Office Soldier                                         46
     Army Space Program Office                                                47
Background
    In accordance with Public Law 108-375, the Ronald Reagan National Defense
    Authorization Act of FY 2005, Section 802, “Internal Controls for Department of
    Defense Procurements Through GSA Client Support Centers,” October 28, 2004,
    the DoD Office of Inspector General (IG) and General Services Administration
    (GSA) conducted an interagency audit of DoD purchases made through GSA. In
    DoD IG Report No. D-2005-096, “DoD Purchases Made Through the General
    Services Administration,” July 29, 2005, DoD IG determined that guidance
    regarding such purchases was unclear and misunderstood by the requesting
    organizations. DoD IG also determined that the mismanagement of funds and
    lack of acquisition planning for funds transferred to GSA caused between
    $1 billion and $2 billion of DoD funds to either expire or otherwise be
    unavailable to support other DoD operations. The DoD IG has issued a series of
    reports to discuss DoD interagency support from GSA, Department of the
    Treasury, Department of the Interior, and the National Aeronautics and Space
    Administration.

    The first audit of DoD purchases made through GSA prompted a separate series
    of audits discussing DoD use of interagency and interservice support. This is the
    third report in that series, and it addresses the internal controls over the
    Department of the Army military interdepartmental purchase requests (MIPRs).
    The first report in the series, DoD IG Report No. D-2006-102, “Marine Corps
    Governmental Purchases,” July 31, 2006, discusses a lack of adequate internal
    controls over outgoing and incoming MIPRs at the Marine Corps. The second
    report in the series addresses the internal controls over Department of the Navy
    MIPRs. Future reports will discuss the use of interagency and interservice
    support by the Missile Defense Agency and Special Operations Command.

    Military Interdepartmental Purchase Requests. DoD Components use
    “interservice” MIPRs to order goods or services from other DoD Components and
    “interagency” MIPRs to order from non-DoD Government organizations. The
    requesting organization initiates a MIPR by preparing a DD Form 448, “Military
    Interdepartmental Purchase Request.” The performing organization prepares a
    DD Form 448-2, “Acceptance of MIPR,” agreeing to provide the requested goods
    or services. A MIPR is considered “outgoing” to the organization that requests
    the goods or services and “incoming” to the organization that provides the
    requested goods or services. MIPRs are funded on a direct citation basis, a
    reimbursable basis, or both. See Appendix C for a glossary of technical terms
    used in this report.

    Both the Assistant Secretary of the Army (Financial Management and
    Comptroller) and the Assistant Secretary of the Army (Acquisition, Logistics, and
    Technology) have responsibilities related to Army MIPRs. The Assistant
    Secretary of the Army (Financial Management and Comptroller) is responsible
    for policies, procedures, programs, and systems that pertain to finance and
    accounting activities and operations; Army financial management systems and
    data integration activities; and Army programs for management control. The
    Assistant



                                        1
           Secretary of the Army (Acquisition, Logistics, and Technology) is responsible for
           executing the acquisition function of the Department of the Army.

           Federal Laws and DoD Regulations. MIPRs are regulated by Federal laws and
           DoD regulations. See Appendix D for a detailed description of applicable MIPR
           laws and regulations.

Objectives
           The audit objective was to evaluate the internal controls over the Department of
           the Army’s purchases from governmental sources, excluding GSA, Department of
           the Treasury, Department of the Interior, and the National Aeronautics and Space
           Administration. Specifically, we examined the Department of the Army’s
           processes for initiating, preparing, executing, monitoring, and accepting MIPRs.
           We determined whether the Department of the Army clearly defined its
           requirements and whether it properly used and tracked funds. We also evaluated
           the managers’ internal control program as it related to our audit objective, which
           is further discussed at finding B. See Appendix A for a discussion of the scope
           and methodology and Appendix B for prior coverage related to the objectives.

Review of Internal Controls
           DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
           and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
           August 28, 1996, require DoD organizations to implement a comprehensive
           system of management controls that provides reasonable assurance that programs
           are operating as intended and to evaluate the adequacy of the controls. 1

           Scope of the Review of the Management Control Program. We reviewed the
           adequacy of the Army’s internal controls over MIPRs. Specifically, we reviewed
           Army internal controls over the process of initiating, preparing, executing,
           monitoring, and accepting MIPRs. We also reviewed the adequacy of
           management’s self-evaluation of those controls.
           Adequacy of Management Controls. The Army had internal control
           weaknesses as defined by DoD Instruction 5010.40. The Army’s internal controls
           for processing MIPRs were not adequate to ensure that MIPRs were properly
           initiated, prepared, executed, monitored, and accepted. Recommendation A.3.,
           when implemented, will correct the identified internal control weaknesses.
           Recommendations B.1., B.2., and B.3. should provide for a more accurate
           assessment and reporting of internal controls. We will provide a copy of the final
           report to the senior Army officials responsible for management controls.



1
    Our review of internal controls was done under the auspices of DoD Directive 5010.38, “Management
    Control (MC) Program,” August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996. DoD Directive 5010.38 was canceled on April 3, 2006. DoD
    Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” was reissued on
    January 4, 2006.



                                                    2
Adequacy of Management’s Self-Evaluation. Most Army organizations did not
identify the MIPR process as an assessable unit or part of an assessable unit
within the management control program and, therefore, did not identify or report
the management control weaknesses identified by the audit.




                                   3
                   A. Adequacy of Army Internal Controls
                      over Governmental Purchases
                   Army internal controls did not ensure that outgoing MIPRs were properly
                   initiated, prepared, executed, and monitored and that incoming MIPRs
                   were properly accepted. Internal controls over MIPRs were inadequate
                   because the Army did not develop, issue, and enforce standard MIPR
                   procedures throughout its organizations. Army organizations did not
                   comply with existing Federal laws and DoD regulations. Furthermore,
                   existing guidance from the Under Secretary of Defense (Comptroller)/
                   Chief Financial Officer was unclear. Without enforcing existing laws and
                   regulations and providing specific procedures on the MIPR process, the
                   Army could not ensure that purchases were in the best interest of the
                   Government and properly monitored and tracked.

Army MIPRs
           The Army was unable to provide a universe that included all outgoing and
           incoming MIPRs. Although Army financial systems contained outgoing and
           incoming MIPR transactions, 2 the information was incomplete because the Army
           could not ensure that a standard document number (SDN), which allows
           transactions to be tracked, was correctly assigned to each MIPR. As a result,
           Army financial systems only identified transactions for MIPRs that included
           “MIPR” in the SDN.

           We examined a sample of 160 MIPRs (valued at approximately $853 million)
           from a universe obtained from Defense Finance and Accounting Service
           Indianapolis (DFAS-IN). We reviewed 118 outgoing MIPRs (valued at
           approximately $731 million) and 42 incoming MIPRs (valued at approximately
           $122 million) that were issued under the authority of the Economy Act. The
           following table provides a breakdown of the interagency and interservice MIPRs
           we reviewed at four fiscal stations.




2
    MIPR transactions included commitments, obligations, expenses, and disbursements for outgoing MIPRs
    and orders received, earned, billed, and collected for incoming MIPRs.



                                                    4
                                              MIPRs Reviewed
                                                      Outgoing                 Incoming
                     Fiscal Station           Interagency Interservice Interagency Interservice
              DAO Aberdeen*                        0           20           0           20
              Soldier, Biological, and
               Chemical Command (PEO                0             20             0             20
               Soldier)
              DAO Secretary of the Army
                                                    3             36             0              1
               Financial Operations
              Fort Belvoir                          1             38             0              1
                        Subtotal                    4             114            0             42
                            Total                           118                         42
              *Defense Accounting Office.

           See Appendix A for a detailed explanation of how we chose the audit sites and
           sampled MIPRs and for a list of organizations we reviewed.

Outgoing Army MIPRs
           The Army did not adequately control the initiation, preparation, execution, or
           monitoring of 110 of the 118 outgoing MIPRs we reviewed. The 118 outgoing
           MIPRs were issued to other governmental organizations by Defense Accounting
           Office (DAO) Aberdeen, Program Executive Office (PEO) Soldier (formerly
           known as “Soldier, Biological, and Chemical Command”), 3 DAO Secretary of the
           Army Financial Operations, and Fort Belvoir. See Tables E-1 through E-7
           (Appendix E) for problems with outgoing Army MIPRs.

           MIPR Initiation
           Before initiating a MIPR, Army requesting organizations are responsible for
           determining whether the purchase of goods or services is in the best interest of the
           Government and serves a bona fide need. They are required to document these
           determinations on a Determination and Finding for interagency MIPRs; or on a
           DD Form 1144, “Support Agreement,” Memorandum of Agreement (MOA), or
           Memorandum of Understanding (MOU), for interservice MIPRs. We found that
           the Army organizations requesting goods or services did not provide sufficient
           documentation for 102 of the 118 outgoing interagency and interservice MIPRs.
           These 102 MIPRs were valued at approximately $682 million.

           Interagency Support. The Army did not provide a Determination and Finding to
           support any of the four outgoing interagency MIPRs we reviewed from DAO
           Secretary of the Army Financial Operations and Fort Belvoir. According to
           Federal Acquisition Regulation (FAR) Subpart 17.5, “Interagency Acquisitions

3
    The Soldier, Biological, and Chemical Command was renamed “PEO Soldier.” However, DFAS-IN
    Regulation 37-100-06 states that the official name of the fiscal station is “Soldier, Biological, and
    Chemical Command.” We performed all audit work for this fiscal station at PEO Soldier.



                                                        5
Under the Economy Act,” March 2005, and DoD Financial Management
Regulation (FMR), volume 11A, chapter 3, “Economy Act Orders,” April 2000,
each interagency Economy Act order must be supported by a Determination and
Finding. The Determination and Finding should state that the order being made
under the Economy Act, such as a MIPR, is in the best interest of the Government
and that goods and services cannot be obtained as conveniently or economically
by contracting directly with a commercial enterprise. According to the FAR and
DoD FMR, the Economy Act applies when more specific statutory authority does
not exist.

Because the Army did not comply with the FAR Subpart 17.5 and DoD FMR,
volume 11A, chapter 3, Army organizations made purchases, valued at
approximately $1 million, that may not have been in the best interest of the
Government and might have been completed more conveniently or economically
by contracting with a commercial enterprise. The Army should ensure that a
Determination and Finding is properly analyzed and prepared for all outgoing
interagency MIPRs.

Other services have also had problems with not justifying MIPRs. DoD IG
Report No. D-2006-102, “Marine Corps Governmental Purchases,” July 31, 2006,
discusses inadequate internal controls over outgoing and incoming MIPRs at the
Marine Corps. The report includes a recommendation that the Under Secretary of
Defense (Comptroller)/Chief Financial Officer revise the DoD FMR,
volume 11A, chapter 3, “Economy Act Orders,” April 2000, to clarify whether a
Determination and Finding is required for interservice support when the
requesting organization already has a completed Support Agreement in place.

Interservice Support. Of the 114 outgoing interservice MIPRs, the Army did
not provide an adequate Support Agreement, MOA, or MOU to support
98 (valued at approximately $681 million). Of these 98 outgoing interservice
MIPRs, 82 (valued at approximately $650 million) had no supporting
documentation at all. The other 16 (valued at approximately $31 million) of these
98 MIPRs had the required Support Agreement, MOA, or MOU, but the
documentation file did not include a statement that the acquisitions were in the
best interest of the Government.

DoD Instruction 4000.19, “Interservice and Intragovernmental Support,”
August 9, 1995, and DoD FMR, volume 11A, chapter 3 state that interservice
orders must be in the best interest of the Government. The Army did not
routinely document that it complied with either directive when purchasing goods
and services from other DoD Components. The Army organizations purchased
goods or services valued at approximately $681 million that may not have been in
the best interest of the Government. Those purchases might have been completed
more conveniently or economically by contracting with a commercial enterprise.
A Support Agreement, MOA, or MOU that states that the acquisition is in the best
interest of the government should be prepared for all outgoing interservice
MIPRs.

Standard Operating Procedures. Many of the other problems we identified
with MIPR preparation, execution, and monitoring related to the lack of standard
operating procedures and enforcement of Federal laws and DoD regulations. The


                                    6
Army did not implement standard MIPR procedures throughout its organizations.
The Assistant Secretary of the Army (Financial Management and Comptroller)
had not developed standard operating procedures to ensure that Army
organizations complied with Federal laws and DoD regulations governing the use
of outgoing interagency and interservice MIPRs. The Army should develop,
issue, and enforce standard operating procedures for initiating, preparing,
executing, and monitoring outgoing MIPRs.

MIPR Preparation
For 75 of the 118 outgoing MIPRs, Army requesting organizations did not
properly prepare DD Forms 448. These 75 MIPRs were valued at approximately
$429 million. For each outgoing MIPR, Army requesting organizations were
responsible for accurately preparing a DD Form 448 and ensuring that it was
approved by an authorized individual. Each DD Form 448 should have included
the correct appropriation; proper certification of fund availability; a specific,
definite, and certain description of supplies and services; and a clearly defined
period of performance. The DD Forms 448 for 40 of the 75 MIPRs had multiple
deficiencies. The 40 MIPRs were valued at approximately $173 million.
MIPR Approval. Signature authority was not documented for 37 of the
118 outgoing MIPRs. Specifically, the Army did not provide documented
signature authority (a DD Form 577, “Appointment/Termination Record-
Authorized Signature”) for signatures on 36 MIPRs. The Army provided us with
a DD Form 577 to document signature authority for 81 outgoing MIPRs. For the
remaining one outgoing MIPR, the DAO Secretary of the Army Financial
Operations provided a DD Form 577 that was missing the signature of the
organization’s commander or appointing authority.

Existing DoD regulations do not clearly state how signature authority for
DD Form 448 should be documented. Although DoD FMR, volume 5,
chapter 11, “Disbursements,” February 2006, states that the DD Form 577
designates authority to sign specific types of documents, it does not specifically
address the DD Form 448. The Army also did not provide specific procedures for
documenting signature authority. As a result, purchases valued at approximately
$168 million were made through MIPRs for which the Army could not provide
documented approval authority. The Army should ensure that signature authority
is documented and all MIPRs are signed by an authorized individual.

Certification of Funds. The Army did not properly certify fund availability
before issuing those same 37 MIPRs that lacked authorized signatures. DoD
FMR, volume 11A, chapter 3, states that the head of an organization may place an
order for goods or services if funds are available. The availability of funds can be
determined by a certifying officer (whose appointment should be authorized).
Because the Army did not ensure compliance with the DoD FMR by certifying
fund availability, it increased the potential of an Antideficiency Act violation. A
violation of the Antideficiency Act occurs when an obligation or expenditure
exceeds the amount available in its apportionment. The Army should comply
with the DoD FMR, volume 11A, chapter 3, by properly certifying fund
availability before a MIPR is issued.



                                     7
Appropriation Classification. The Army cited incorrect appropriations for 4 of
the 118 outgoing MIPRs. These four MIPRs, valued at approximately $251,000,
were initiated by Fort Belvoir. One MIPR cited Research, Development, Test,
and Evaluation funds (Basic Symbol 2040) for the replacement of a flooring
system and installation of air conditioning units. Those services did not meet the
criteria to be considered research, development, test, and evaluation actions.

DFAS-IN Regulation 37-100-06, “Financial Management, The Army
Management Structure Fiscal Year 2006,” December 2005, provides specific
guidelines for determining the correct use of appropriations. Research,
Development, Test, and Evaluation funds should be used for products or services
related to research and development activities. Operation and Maintenance funds
(Basic Symbol 2020) should be used for the purchase of equipment, which would
include the replacement of a flooring system and installation of air conditioning
units. Section 1301, title 31, United States Code, (31 U.S.C. 1301),
“Application,” January 19, 2004, states that appropriations must be applied only
to the objects for which the appropriations were made, except as otherwise
provided by law.

Because the Army used funds for other than the stated purpose, it potentially
violated the Antideficiency Act (i.e., 31 U.S.C. 1341). For each of the four
MIPRs, the Army should determine if a violation of the Antideficiency Act
occurred. If a violation occurred, the Army is required to perform corrective
actions as provided in DoD FMR, volume 14, chapter 10, “Violations – Causes,
Prevention, and Correction,” October 2004. Additionally, the Army should
ensure that all MIPRs cite correct appropriations as required by 31 U.S.C. 1301
and DFAS-IN Regulation 37-100-06.

Description of the Supplies and Services. For 18 of the 118 outgoing MIPRs,
valued at approximately $181 million, the Army did not provide a sufficient
description of the supplies and services requested. For example, one MIPR from
PEO Soldier, valued at approximately $3.8 million, indicated “Corporate
Support” as the supplies or services requested.
“Corporate Support” is a vague description that could refer to a variety of
supplies and services. The DoD FMR, volume 11A, chapter 3, requires that
Economy Act orders be specific, definite, and certain as to the work encompassed
by the order and the terms of the order itself. Because the Army did not comply
with the DoD FMR when describing the scope and terms of orders, it faced
potential difficulties ensuring that:

       •   only appropriate projects were approved,

       •   amendments were in line with the scope of the work to be performed,

       •   appropriate funds were being used, and

       •   the supplies and services ordered were received and adequate.

All MIPRs should contain a specific, definite, and certain description of the
supplies or services requested by the MIPR.


                                     8
Period of Performance. The Army did not specify the required period of
performance for 52 of the 118 outgoing MIPRs. These 52 MIPRs were valued at
approximately $109 million. Defense Federal Acquisition Regulation
Supplement (DFARS) 253.208, “Required Sources of Supplies and Services,”
August 31, 2000, requires the requesting agency to clearly state the required
period of performance for each MIPR. Because the Army did not comply with
DFARS 253.208, it faced potential difficulties determining whether the
performing organization performed in accordance with the terms stated in the
MIPR. Furthermore, Economy Act orders citing an annual or multiyear
appropriation must serve a bona fide need arising, or existing, in the fiscal years
for which the appropriation is available for obligation. The lack of a documented
period of performance limited the Army’s ability to determine if a bona fide need
existed. The Army should ensure that all MIPRs contain a clearly stated period of
performance.

MIPR Execution and Monitoring
The Army did not adequately execute MIPRs and monitor account balances for
54 (valued at approximately $455 million) of the 118 outgoing MIPRs.
Requesting organizations are responsible for ensuring that fiscal limits of
appropriations are followed, obligations are valid and timely, and authorized
balances are not exceeded. Of the 54 MIPRs, 16 (valued at approximately
$10 million) had multiple execution and monitoring issues.

Fiscal Limits of Appropriations. Two of the 118 outgoing Army MIPRs were
not executed within their applicable fiscal limitations. Fort Belvoir obligated
funds for these two MIPRs, which were valued at approximately $4 million, after
the period of availability for making original obligations from the appropriation.
For example, all funds should have been obligated by September 30, 2000, for
MIPR Number MIPR0ACLS26006. Fort Belvoir obligated FY 2000 Operation
and Maintenance, National Guard funds, a one-year appropriation, on June 26,
2003; July 13, 2005; and September 15, 2005.

Economy Act orders are subject to the same fiscal limitations applicable to the
funding appropriation. DFAS-IN Regulation 37-100-06 details the timeframes
that funds are available for obligation. Furthermore, 31 U.S.C. 1502(a),
“Balances Available,” January 2004, states that an appropriation is not available
for expenditure for a period beyond the period authorized by law. Because the
Army did not record obligations for MIPR Number MIPR0ACLS26006 in
compliance with 31 U.S.C. 1502(a), it potentially violated the Antideficiency Act.
31 U.S.C. 1341, “Limitations on Expending and Obligating Amounts,” January
1998, further states that a violation of the Antideficiency Act occurs when the
Government authorizes an obligation exceeding an amount available in an
appropriation. The Army should determine if a violation of the Antideficiency
Act occurred. If a violation occurred, the Army is required to perform corrective
actions as provided in DoD FMR, volume 14, chapter 10. Additionally, the Army
should ensure that fiscal limitations outlined in DFAS-IN Regulation 37-100-06
are followed.




                                     9
Validity of Obligations. Of the 118 outgoing MIPRs, the Army did not provide
all obligating documents for 10, which were valued at approximately $4 million.
For example, Fort Belvoir incurred obligations totaling $805,893 that were not
supported by obligating documents.

DoD FMR, volume 11A, chapter 3, states that an obligation is incurred by the
requesting organization upon acceptance of the order by the performing
organization. DFARS Subpart 208.70, “Coordinated Acquisition,” June 21, 2005,
states that DD Form 448-2 is the authority for the requesting organization to
record the obligation for reimbursable orders. For direct citation orders, the
contract is the authority to record the obligation. National Archives and Records
Administration General Records Schedule 3, “Procurement, Supply, and Grant
Records,” March 2006, details specific guidelines for retention of procurement,
supply, and grant records. Because the Army did not comply with General
Records Schedule 3 in retaining the required obligating documents, obligations
could not be validated. The Army needs to ensure compliance with the General
Records Schedule when retaining Government financial records.

Recording Obligations. For 43 of the 118 outgoing MIPRs, the Army did not
record all the obligations in the accounting systems in a timely manner. These
43 MIPRs were valued at approximately $449 million. Some of the obligations
were recorded from 11 days to 231 days after the signing of the obligating
document. For example, an obligation of approximately $7 million was recorded
by DAO Aberdeen 20 days after the obligating document was signed.

DoD FMR, volume 3, chapter 8, “Standards for Recording and Reviewing
Commitments and Obligations,” June 2005, states that obligations should be
recorded within 10 calendar days of when the obligation is incurred. Failure to
comply with the DoD FMR when processing obligations increased the potential
for negative unliquidated obligations (NULOs). A NULO exists when cumulative
disbursements exceed cumulative obligations. A NULO increases the risk of an
Antideficiency Act violation. The Army must ensure compliance with DoD
FMR, volume 3, chapter 8, when processing MIPR obligations to ensure proper
accounting of funds.

Authorized Balances. NULOs occurred during the execution of 18 of
the 118 outgoing MIPRs. For example, the accounting records for one MIPR
initiated by DAO Aberdeen identified three instances (lasting 6, 12, and 18 days)
of cumulative disbursements exceeding cumulative obligations.

The DoD FMR, volume 3, chapter 11, “Unmatched Disbursements, Negative
Unliquidated Obligations, In-Transit Disbursements, and Suspense Accounts,”
January 2001, states that DoD Components must work with Defense Finance and
Accounting Service (DFAS) to prevent overexpenditures, which include NULOs.
Because the Army did not record obligations and sufficiently monitor
disbursements, it increased the risk of Antideficiency Act violation for these
18 MIPRs, valued at approximately $10 million. Account balances should be
monitored to help prevent overexpenditures.

Deobligations. Funds were not deobligated in a timely manner for one outgoing
MIPR, valued at approximately $4 million, initiated by Fort Belvoir. DoD FMR,


                                    10
    volume 11A, chapter 3, states that funds must be deobligated before the end of the
    appropriation’s period of availability. It also states that funds should be
    deobligated commensurately with goods or services not provided or anticipated
    from an authorized contract with another organization.

    The Fort Belvoir MIPR, initiated on October 6, 1999, cited a single-year
    appropriation (Basic Symbol 2065 - Operation and Maintenance, Army National
    Guard). Fort Belvoir received notice that approximately $400,000 needed to be
    deobligated by September 30, 2005, which was the end of the appropriation’s
    period of availability. However, Fort Belvoir did not prepare a DD Form 448 to
    request the deobligation until March 7, 2006. As of August 15, 2006, the
    deobligation remained unrecorded in the accounting records.

    Because the Army did not comply with the DoD FMR, volume 11A, chapter 3,
    funds were not deobligated in a timely manner, and subsequently were not
    available to satisfy other missions and needs. The Army should ensure that all
    unneeded funds are deobligated and recorded promptly in the accounting records.

Incoming Army MIPRs
    PEO Soldier and Fort Belvoir did not adequately perform their responsibilities for
    accepting 16 incoming MIPRs from other governmental organizations. These 16
    MIPRs were valued at approximately $70 million. Tables E-8 through E-11
    specify problems with incoming Army MIPRs.

    MIPR Acceptance
    Legal Issues. PEO Soldier accepted a DD Form 448-2 for MIPR Number
    MIPR5C1BR00404 that was signed by a contractor, instead of a Government
    official. FAR 1.601, “General,” January 12, 2004, states that contracts may be
    entered into and signed on behalf of the Government only by contracting officers.

    There was no binding agreement between PEO Soldier and the contractor;
    therefore, this is a serious violation of law and constitutes an unauthorized
    obligation and violation of 31 U.S.C. 1501, “Documentary Evidence Requirement
    for Government Obligations,” January 26, 1998. Furthermore, because a
    Government official did not accept the MIPR, the obligation was not properly
    incurred by PEO Soldier, which constitutes a violation of 31 U.S.C. 1502(a). The
    Army needs to initiate an investigation of MIPR Number MIPR5C1BR00404,
    valued at approximately $6 million, to determine the extent to which the
    FAR 1.601 and 31 U.S.C. 1501 and 1502(a) were violated and perform corrective
    actions as necessary.

    Use of Economy Act Orders. Sixteen incoming MIPRs that were accepted by
    PEO Soldier and Fort Belvoir were between organizational units that had the
    same commander. The commander was in a position to use direct funds to obtain
    the required goods or services, which were valued at approximately $70 million
    across the 16 MIPRs. The DD Forms 448-2 for 7 of the 16 MIPRs were signed
    by the same individual who signed the DD Forms 448. DoD FMR, volume 11A,
    chapter 3, states that Economy Act orders cannot be used by one organizational


                                        11
    unit to order work or services from another organizational unit under the same
    organization commander if the commander is in a position to fund the required
    goods or services through the use of direct funds.

    Because the Army did not comply with DoD FMR, volume 11A, chapter 3, it
    inappropriately used MIPRs to obligate approximately $70 million. Furthermore,
    an individual signing both an order and the related acceptance indicates an
    improper segregation of duties. The Army should ensure that organizations
    enforce Federal laws and DoD regulations so that Economy Act orders are not
    inappropriately issued between organizational units and individuals are not
    permitted to request and accept the same MIPR.

Conclusion
    Adequate internal controls are critical elements to ensure that MIPRs are properly
    managed. The lack of Army standard operating procedures and enforcement of
    internal controls over the MIPR process resulted in:

       •   potential violations of the Antideficiency Act and other statutes,

       •   inadequate monitoring of funds,

       •   noncompliance with Federal laws and DoD regulations, and

       •   purchases that were potentially not in the best interest of the Government.

    The Army should improve internal controls over the MIPR process by issuing
    MIPR guidance and ensuring that existing Federal laws and DoD regulations are
    enforced.

Management Comments on the Finding and Audit Response
    Although not required to comment, the Director of the Army Space Program
    Office provided comments on selected portions of the finding. For the full text of
    the Army Space Program Office comments, see the Management Comments
    section of the report.

    Army Space Program Office Comments. The Director of the Army Space
    Program Office stated that the office had instituted a new standard operating
    procedure for budget execution tracking and taken steps to help prevent late
    obligation posting. Regarding the lack of adequate agreements for outgoing
    interservice MIPRs, the Director stated that MOAs existed for MIPR Numbers
    MIPR3AGYR33109 and MIPR5JGYR50552 and that the Army Space Program
    Office is in the process of preparing a MOA for MIPR Number
    MIPR5FGYR50116. The Director also stated that the Army Space Program
    Office did not have time to create a MOU before the event leading to MIPR
    Number MIPR5FGYR50545. In addition, the Director stated that MIPR
    Numbers MIPR3AGYR33109 and MIPR5FGYR50545 were not in a NULO
    status.



                                        12
    Audit Response. We commend the Army Space Program Office for taking steps
    to track the status of budget execution data for each of its MIPRs. Continuous
    tracking of budget execution data should allow the Army Space Program Office
    to identify potential problems and correct them in a timely manner. We requested
    the MOA for MIPR Number MIPR5JGYR50552 at least twice, but it was never
    provided to us. The MOA for MIPR Number MIPR3AGYR33109 did not
    properly state that the purchase was in the best interest of the Government. On
    May 31, 2006, we spoke with the Army Space Program Office Budget Officer
    regarding the detailed accounting transaction history for the two MIPRs that we
    reported as being in a NULO status. We agree that both MIPRs were not in a
    NULO status at the time of the review. However, these MIPRs were in a NULO
    status at various times during their period of execution.

Recommendations, Management Comments, and Audit
  Response
    A. We recommend that the Assistant Secretary of the Army (Financial
    Management and Comptroller), in coordination with the Assistant Secretary
    of the Army (Acquisition, Logistics, and Technology):

           1. Direct the appropriate Army organizations to initiate preliminary
    reviews and corrective actions for the five military interdepartmental
    purchase requests that potentially violated the Antideficiency Act as defined
    by the DoD Financial Management Regulation. (See Appendix E, Tables E-6
    and E-7 for military interdepartmental purchase requests that violated or
    potentially violated the statutory and fiscal limitations imposed on
    appropriations.)

    Management Comments. The Assistant Secretary of the Army (Financial
    Management and Comptroller) did not comment. We request that the Assistant
    Secretary of the Army (Financial Management and Comptroller) coordinate with
    the Assistant Secretary of the Army (Acquisition, Logistics, and Technology) and
    provide comments on the final report.

            2. Direct the Program Executive Officer Soldier to initiate an
    investigation of military interdepartmental purchase request number
    MIPR5C1BR00404, which was signed by a contractor, and determine the
    extent to which the Federal Acquisition Regulation 1.601 and sections 1501
    and 1502(a), title 31, United States Code were violated. Based on the results
    of the investigation, the Program Executive Officer Soldier should perform
    corrective actions as necessary.

    Management Comments. The Assistant Secretary of the Army (Financial
    Management and Comptroller) did not comment. Although not required to
    comment, the Program Executive Officer Soldier stated that PEO Soldier
    amended the original MIPR to reflect the signature of an authorized individual
    with a DD Form 577 on file. The MIPR was resubmitted and processed on
    November 15, 2006.




                                       13
Audit Response. The actions taken by PEO Soldier were not responsive. PEO
Soldier allowed a contractor to make unauthorized obligations on behalf of the
Government. Without an investigation, it is not possible to determine if
appropriate corrective actions were taken. Amending the original MIPR to reflect
the signature of an authorized individual and re-executing the MIPR does not
ensure that appropriate determinations were made, such as whether proper funds
were available at the time of the authorized execution and whether the control
procedures that permitted this situation to occur were reviewed and strengthened.
We request that the Assistant Secretary of the Army (Financial Management and
Comptroller) provide comments on the final report.

       3. Develop, issue, and enforce standard operating procedures
regarding how Army organizations initiate, prepare, execute, monitor, and
accept military interdepartmental purchase requests to ensure that:

                 a. all supporting documents, including Determinations
and Findings, Support Agreements, Memorandums of Agreement, and
Memorandums of Understanding, are appropriately prepared before a
military interdepartmental purchase request is issued or accepted;

                 b. all supporting documents are approved by an
authorized individual with documented signature authority;

                  c. all DD Form 448s are appropriately prepared with the
correct appropriation; a specific, definite, and certain description of the
supplies or services requested; and a clearly stated period of performance;

                 d. funds are certified for availability prior to issuing a
military interdepartmental purchase request;

                    e. organizations record valid and timely obligations within
the fiscal limits of appropriations, and monitor account balances to prevent
overexpenditures;
                 f. organizations record deobligations within the
appropriation’s period of availability;

                g. all military interdepartmental purchase requests and
required documentation are properly retained in accordance with the
General Records Schedule; and

                  h. organizations enforce Federal laws so that Economy Act
orders are not inappropriately issued between organizational units and
individuals are not permitted to request and accept the same military
interdepartmental purchase request.

Management Comments. The Deputy Assistant Secretary of the Army
(Financial Operations) concurred and stated that the Army will work with the
Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer,
the Office of the Under Secretary of Defense (Acquisition, Technology, and
Logistics), and the Office of the Assistant Secretary of the Army (Acquisition,


                                   14
Logistics, and Technology) to develop procedures that will ensure adequate
controls are in place. He also stated that the Army will take appropriate actions
to: ensure that MIPRs are supported by a solid determination of requirements
with the appropriate approvals, include a description of supplies and services,
identify a specific period of performance, and cite the proper appropriation and
fund certification in support of the agreement.

Audit Response. The Deputy Secretary of the Army (Financial Operations)
comments were partially responsive. Although he agreed to develop procedures
that will ensure adequate controls are in place, the Deputy Assistant Secretary of
the Army (Financial Operations) did not specifically address whether the
procedures would cover Recommendations A.3.e. through A.3.h. We request that
the Assistant Secretary of the Army (Financial Management and Comptroller)
provide additional comments in response to the final report.




                                    15
           B. Army Management Control Program
              for Military Interdepartmental
              Purchase Requests
           The Army Management Control Program was ineffective and did not
           identify internal control weaknesses related to outgoing and incoming
           MIPRs. This occurred because the Army did not perform a general
           assessment of the internal controls for processing MIPRs. As a result,
           internal controls were not adequate to ensure that outgoing MIPRs were
           properly initiated, prepared, executed, and monitored, and incoming
           MIPRs were properly accepted.

Criteria for Management Control Programs
    Government Accountability Office. GAO/AIMD-00-21.3.1, “Standards for
    Internal Control in Federal Government,” November 1999, states:

           The Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
           requires the General Accounting Office [Government Accountability
           Office] to issue standards for internal control in government. The
           standards provide the overall framework for establishing and
           maintaining internal control and for identifying and addressing major
           performance and management challenges and areas at greatest risk of
           fraud, waste, abuse, and mismanagement.

    The five standards for internal control are: control environment, risk assessment,
    control activities, information and communications, and monitoring. The
    standards define the minimum level of quality acceptable for internal control in
    the Government and provide the basis for evaluating internal control.

    Office of Management and Budget. Office of Management and Budget Circular
    No. A-123, “Management’s Responsibility for Internal Control,” revised
    December 21, 2004, provides guidance to Federal managers on improving the
    accountability and effectiveness of Federal programs and operations by
    establishing, assessing, correcting, and reporting on internal controls. Office of
    Management and Budget Circular No. A-123 states:
           Management is responsible for establishing and maintaining internal
           control to achieve the objectives of effective and efficient operations,
           reliable financial reporting, and compliance with applicable laws and
           regulations. Agencies and individual Federal managers must take
           systematic and proactive measures to develop and implement
           appropriate, cost-effective internal control for results-oriented
           management; assess the adequacy of internal control in Federal
           programs and operations; separately assess and document internal
           control over financial reporting; identify needed improvements; take
           corresponding corrective action; and report annually on internal control
           through management assurance statements.




                                             16
     DoD Directive. DoD Directive 5010.38 implemented the Government
     Accountability Office and Office of Management and Budget guidance required
     by the Federal Managers’ Financial Integrity Act of 1982. The DoD Directive
     required DoD Components to implement a comprehensive strategy for
     management (internal) controls that provides reasonable assurance that
     “. . . programs and administrative and operating functions are efficiently and
     effectively carried out in accordance with applicable law and management
     policy.” The management control process should be integrated into the daily
     management practices of all DoD managers. When developing the Management
     Control Program, DoD managers should rely on all contributing information
     sources, including external audits.

     DoD Instruction. DoD Instruction 5010.40 requires DoD Components to
     develop a Management Control Program to review, evaluate, and report on the
     effectiveness of management (internal) controls in the DoD, and to take
     appropriate corrective action to identify and correct ineffective internal controls
     and establish internal controls when warranted. The Management Control
     Program, through its self-evaluation process, assists managers in identifying
     material internal control weaknesses. The DoD Instruction states that to be a
     material weakness, two conditions must be satisfied:

            •   the weakness results from internal controls that are not in place, not
                used, or not adequate; and

            •   the weakness is material enough to require the attention of the next
                level of management.

     Each DoD Component is required to submit an annual statement of assurance
     based on a general assessment of the effectiveness of the internal controls.

Assessment of Internal Controls
     Army internal controls for processing MIPRs were not adequate to ensure that
     MIPRs were properly initiated, prepared, executed, monitored, and accepted.
     Army officials did not identify MIPRs as part of their Management Control
     Program for 15 of the 16 organizations we reviewed and, therefore, did not
     perform a general assessment of the internal controls for MIPRs. (See
     Appendix A for the list of organizations visited.) One organization, Logistics
     Transformation Agency, identified MIPRs as part of its Management Control
     Program and assessed internal controls over MIPRs by reviewing MIPR files to
     validate that it had properly initiated, prepared, executed, and monitored MIPRs.

     Had the Army performed a general assessment of the internal controls for
     processing MIPRs, it might have identified inadequate and ineffective controls,
     noncompliance with Federal laws and DoD regulations, and potential violations
     of the Antideficiency Act and other statutes. The Army needs to determine
     whether MIPRs should be either an assessable unit or part of another assessable
     unit. The Army should also assess the status of the internal control weaknesses
     identified in finding A and determine whether they meet the criteria for a material
     weakness.



                                          17
Recommendations and Management Comments
    B. We recommend that the Assistant Secretary of the Army (Financial
    Management and Comptroller):

           1. Direct Army organizations that use military interdepartmental
    purchase requests to purchase goods and services to determine whether
    military interdepartmental purchase requests should be either an assessable
    unit or part of another assessable unit.

           2. Direct Army organizations that use military interdepartmental
    purchase requests to purchase goods and services to perform a general
    assessment of internal controls for processing military interdepartmental
    purchase requests to determine their effectiveness and reliability.

           3. Determine whether the internal control weaknesses identified in
    finding A meet the criteria for a material weakness as stated in DoD
    Instruction 5010.40, “Managers’ Internal Control (MIC) Program
    Procedures,” January 4, 2006.

    Management Comments. The Assistant Secretary of the Army (Financial
    Management and Comptroller) did not comment. We request that the Assistant
    Secretary of the Army (Financial Management and Comptroller) provide
    comments on the final report.




                                     18
Appendix A. Scope and Methodology
           Scope of Review. We reviewed purchases between DoD Components
           (interservice) and purchases between the Army and non-DoD governmental
           organizations (interagency). The interagency purchases were with the
           Department of Energy, Department of Veterans Affairs, and Department of
           Agriculture. We did not review MIPRs with agencies specifically excluded in the
           audit announcement (GSA, Department of the Treasury, Department of the
           Interior, and the National Aeronautics and Space Administration). We reviewed
           only MIPRs citing Treasury Index 21 (Army) funds.

           We performed the audit from January through October 2006, in accordance with
           generally accepted government auditing standards.

           Site Selection. We selected the audit sites using analytical procedures. The
           Army was unable to provide a universe that included all outgoing and incoming
           MIPRs. Although the Army financial systems contained outgoing and incoming
           MIPR transactions, 4 the information was incomplete. This occurred because the
           Army financial systems only identified MIPR transactions for MIPRs that
           included “MIPR” in the standard document number (SDN) which allows
           transactions to be tracked throughout the process. However, the Army could not
           ensure that the SDN was correctly assigned to each MIPR. In order to obtain all
           identifiable MIPR transactions, we requested DFAS-IN personnel to query the
           Operational Data Store (ODS) for first quarter FY 2006 transactions with “MIPR”
           in the SDN field. The ODS is an automated data storage system comprised of
           daily downloads of transactional data submitted by the Army Standard Finance
           System (STANFINS) and the Army Standard Operations and Maintenance
           Research and Development System (SOMARDS). DFAS-IN ODS personnel
           provided a summary of first quarter FY 2006 MIPR activity at each fiscal station
           number (FSN). MIPR activity was defined both in terms of the dollar amount of
           the MIPR transactions and the number of MIPR transactions.

           Based on the first quarter FY 2006 summary MIPR transaction data provided by
           DFAS-IN ODS personnel, the DoD IG Quantitative Methods Directorate (QMD)
           determined the top nine FSNs by MIPR dollar amount and number of MIPR
           transactions. In order to maximize resources and minimize travel costs, we
           selected the geographical area with the most FSNs in the top nine in terms of the
           dollar amount and number of MIPR transactions. We chose to review
           organizations in the Washington, D.C. area because it had four FSNs in the top
           nine: 18001 - DAO Aberdeen; 19130 - PEO Soldier; 23185 - DAO Secretary of
           the Army Financial Operations; and 44008 - Fort Belvoir, Virginia. Because
           MIPR files were physically located at several organizations for each FSN, and not
           at one central location, we further refined the selection by allotment serial
           number, which enabled us to determine where MIPRs were physically located.
           The table below identifies the 16 organizations whose MIPRs we reviewed.


4
    MIPR transactions included commitments, obligations, expenses, and disbursements for outgoing MIPRs
    and orders received, earned, billed, and collected for incoming MIPRs.



                                                   19
                            Organizations Reviewed

    FSN                  Organization
   18001    Army Space Program Office
   19130    PEO Soldier
   23185    Army Center for Substance Abuse Programs
            Army Community and Family Support Center
            Army Management Staff College
            Army Services and Operations Agency
            Assistant Chief of Staff, Installation Management
            Chief Information Officer, G6
            Deputy Chief of Staff for Civilian Personnel
            Headquarters Department of the Army, Resource Management Directorate
            Joint Improvised Explosive Device Defeat Organization
            Logistics Transformation Agency
            Rapid Equipping Force
   44008    Acquisition Support Center
            Operational Support Airlift Agency
            PEO Enterprise Information Systems


Sample Selection. After the audit sites were chosen, we requested detailed
accounting records for all MIPRs that had activity during calendar year 2005,
because it was the most current year for which we could get an entire 12 months
of MIPR data. Outgoing MIPRs were identified with “MIPR” in the SDN.
However, because the Army could not ensure that incoming MIPRs included
“MIPR” in the SDN, we obtained detailed accounting records for SOMARDS
MIPRs using the reimbursable order number field obtained from DFAS Rock
Island, the DFAS site that maintains SOMARDS data. By definition, any
transaction with an amount in the reimbursable order number field should be a
MIPR. There was no alternate way to identify an incoming MIPR in STANFINS
without using “MIPR” in the SDN. Consequently, we obtained the STANFINS
accounting records from ODS.

Once we obtained the detailed accounting records for both STANFINS (using
ODS) and SOMARDS, we queried the data to determine the dollar amount of
MIPR transactions and the total number of MIPR transactions for each FSN by
operating activity and allotment serial number. We queried the detailed
accounting records from SOMARDS and ODS by allotment serial number and
provided the data pertaining to selected audit sites to QMD. QMD then provided
us with a sample of MIPR transactions to review at each FSN. For each FSN,
QMD selected the top five outgoing and top five incoming transactions based on
the dollar amount of the transaction. QMD also provided a random sample of
15 outgoing and 15 incoming transactions to review for each FSN. In total, QMD
provided a sample of 20 outgoing and 20 incoming MIPR transactions to review
for each FSN. Additionally, because the sample was derived from MIPR




                                     20
transactions rather than individual MIPRs, QMD provided approximately
20 outgoing and 20 incoming sample replacements for each FSN. We used
sample replacements when the sample contained:

   •   multiple transactions from the same MIPR,

   •   a transaction from a MIPR that was specifically excluded from the scope
       of the review, or

   •   a MIPR that was not physically located at the audit site.

During our audit, we discovered that 19 of the 20 MIPR transactions identified as
incoming MIPRs for FSNs 23185 and 44008 were actually outgoing MIPRs. This
occurred because QMD selected samples based on fiscal action codes DFAS used
to designate outgoing and incoming MIPRs. However, we subsequently found
that fiscal action code “8” was used for both outgoing and incoming MIPRs. In
order to maintain sample integrity, we reviewed those MIPRs as outgoing MIPRs.
Therefore, we reviewed 39 outgoing MIPRs and 1 incoming MIPR for both
FSN 23185 and 44008. That resulted in a revised sample total of 118 outgoing
and 42 incoming MIPRs for all four FSNs.

MIPR Review. Based on the sample of MIPR transactions provided by QMD,
we examined each MIPR and the management control process within each
organization during our site visits from March to June 2006. Specifically, we:

   •   requested all supporting documentation for each MIPR,

   •   interviewed budget execution and resource management personnel,

   •   completed a review checklist for each MIPR, and

   •   reviewed standard operating procedures related to the processing of
       MIPRs.
Supporting documentation included DD Forms 448 and 448-2, Determinations
and Findings, Support Agreements, contracts, local accounting records, signature
appointment records, and any other relevant information.

Upon completion of the review checklist for each sampled MIPR, we
performed extensive analyses of the data captured in the MIPR checklists. We
also performed an extensive analysis of the detailed accounting records that we
obtained from DFAS Rock Island (FSNs 18001 and 19130) and DFAS-IN ODS
(FSNs 23185 and 44008). For the audit sites visited, we examined:

   •   procedures for initiating, preparing, executing, and monitoring outgoing
       MIPRs;

   •   procedures for accepting incoming MIPRs; and

   •   internal control processes and procedures for both outgoing and incoming
       MIPRs.


                                    21
We did not examine the controls over MIPR disbursements. The disbursement
process was performed entirely within DFAS. We used the results of our
analyses and reviews to document the internal control weaknesses discussed in
finding A.

Use of Computer-Processed Data. We used first quarter FY 2006 data from
ODS to select the audit sites and calendar year 2005 data from SOMARDS and
ODS to determine the MIPRs we reviewed at each FSN. We used SOMARDS
accounting records to identify the commitment, obligation, expense, and
disbursement transaction data for FSNs 18001 and 19130. We used STANFINS
accounting records stored within DFAS-IN ODS to provide the obligation and
disbursement transaction data for FSNs 23185 and 44008.

DoD has acknowledged the unreliability of its financial management systems,
including SOMARDS and STANFINS. Therefore, we did not perform a formal
reliability assessment of the computer-processed data. An examination would
have required extensive reconciling of submitted accounting data to detail records
available only at submitting field sites and their supporting accounting offices.
Although we used SOMARDS and STANFINS data to perform some of the audit
tests, we did not rely on the accuracy and completeness of the accounting data
used for those tests. Not assessing reliability of the systems did not prevent us
from concluding on the internal controls for the management and processing of
Army MIPRs.

Use of Technical Assistance. QMD provided technical assistance throughout the
site and MIPR selection processes. QMD first determined the top nine FSNs
based on the total dollar amount and number of MIPR transactions at each FSN.
We selected four of the top nine FSNs to audit based on geographical location.
For each selected FSN, QMD provided a sample of 20 outgoing and 20 incoming
MIPRs to review. In addition, QMD provided approximately 20 outgoing and
20 incoming sample replacements.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the Management of Interagency Contracts, DoD Financial
Management, and DoD Contract Management high-risk areas.




                                    22
Appendix B. Prior Coverage
    During the past 5 years, the DoD IG issued 13 reports discussing MIPRs.
    Unrestricted DoD IG reports can be accessed at
    http://www.dodig.mil/audit/reports.

DoD IG
    DoD IG Report No. D-2007-062, “Department of the Navy Purchases for and
    from Governmental Sources,” February 28, 2007

    DoD IG Report No. D-2007-057, “Use and Controls over Military
    Interdepartmental Purchase Requests at the National Geospatial-Intelligence
    Agency,” February 13, 2007

    DoD IG Report No. D-2007-044, “FY 2005 DoD Purchases Made Through the
    Department of the Interior,” January 16, 2007

    DoD IG Report No. D-2007-042, “Potential Antideficiency Act Violations on
    DoD Purchases Made Through Non-DoD Agencies,” January 2, 2007

    DoD IG Report No. D-2007-032, “FY 2005 DoD Purchases Made Through the
    Department of the Treasury,” December 8, 2006

    DoD IG Report No. D-2007-023, “FY 2005 DoD Purchases Made Through the
    National Aeronautics and Space Administration,” November 13, 2006

    DoD IG Report No. D-2007-007, “FY 2005 DoD Purchases Made Through the
    General Services Administration,” October 30, 2006

    DoD IG Report No. D-2006-102, “Marine Corps Governmental Purchases,”
    July 31, 2006

    DoD IG Report No. D-2006-029, “Report on Potential Antideficiency Act
    Violations Identified During the Audit of the Acquisition of the Pacific Mobile
    Emergency Radio System,” November 23, 2005

    DoD IG Report No. D-2005-096, “DoD Purchases Made Through the General
    Services Administration,” July 29, 2005

    DoD IG Report No. D-2003-090, “Use and Control of Military Interdepartmental
    Purchase Requests at the Air Force Pentagon Communications Agency,”
    May 13, 2003




                                        23
DoD IG Report No. D-2002-110, “Policies and Procedures for Military
Interdepartmental Purchase Requests at Washington Headquarters Services,”
June 19, 2002

DoD IG Report No. D-2002-109, “Army Claims Service Military
Interdepartmental Purchase Requests,” June 19, 2002




                                  24
Appendix C. Glossary of Technical Terms
Allotment Serial Number. The allotment serial number is a four-digit code assigned by
an operating activity to identify a fund target/subdivision within an appropriation or fund.
The allotment serial number is used to identify funds for distribution and accounting
purposes.

Antideficiency Act Violation. Congress passed the Antideficiency Act to curb the fiscal
abuses that frequently created so-called “coercive deficiencies” that required
supplemental appropriations. The Antideficiency Act consists of several statutes that
mandate administrative and criminal sanctions for the unlawful use of appropriated funds
(31 U.S.C. 1341, 1342, 1350, 1351, and 1511-1519). Violations of other laws may
trigger violations of Antideficiency Act provisions, such as the “bona fide needs rule,”
31 U.S.C. 1502(a).

Appropriation. An appropriation is a provision of legal authority by an act of Congress
that permits Federal agencies to incur obligations and to make payments out of the
Treasury for specified purposes. An appropriation usually follows enactment of
authorizing legislation. An appropriation act is the most common means of providing
budget authority. An appropriation does not represent cash actually set aside in the
Treasury for purposes specified in the appropriation act; it represents spending
limitations.

Basic Symbol. The basic symbol is a four-digit code indicating the type of funds or
major purpose of the appropriation. The Treasury has assigned all basic symbols into
two broad categories: receipts and expenditures.

DD Form 448, “Military Interdepartmental Purchase Request.” The DD Form 448
is used to request supplies or services from another governmental organization.

DD Form 448-2, “Acceptance of MIPR.” The DD Form 448-2 is used to formally
accept a DD Form 448.

DD Form 1144, “Support Agreement.” A Support Agreement is an agreement to
provide recurring support between DoD Components. Support Agreements between
DoD Components are used when the performing organization can provide the support
with their personnel or add the requiring organization’s requirements to an existing
contract. Support Agreements are recorded on a DD Form 1144, “Support Agreement,”
or similar format.

Determination and Finding. The Determination and Finding is a special form of
written approval by an authorized official required by statute or regulation as a
prerequisite to taking certain contract actions. The determination is a conclusion or
decision supported by the findings. The finding is a statement of fact or rationale that is
essential to supporting the determination and must address each requirement of the
statute or regulation.

Deobligation. A deobligation is a formal rescission of funds previously obligated.
Funds must be deobligated by the requesting organization to the extent that the



                                             25
performing organization has not, before the end of the period of availability of the
appropriation, provided the goods or services, or entered into an authorized contract with
another entity to provide the requested goods or services.

Direct Citation Order. A direct citation order is an order accomplished by combining
the requirements of one or more DoD organizations with those of a DoD organization
making a procurement. The performing organization may issue one contract with
separate schedules showing the quantities, prices, dollar amounts, and citation of funds of
each requesting organization. The direct citation order is recorded as an obligation by the
DoD organization included in the order when the organization is notified in writing that
the performing organization’s contract or project order has been executed, or when a
copy of the contract or project order is received.

Fiscal Station Number (FSN). An FSN may be assigned to an integrated finance and
accounting office, a non-integrated finance office, a fully-supported organization, or a
decentralized accounting office. FSNs are used by the Department of the Army in
appropriation and fund accounting and to account for Disbursing Officer transactions.

Interagency Support. Interagency support is provided by a DoD Component to a
non-DoD governmental organization and vice versa. It does not include support
provided to or received from foreign governments.

Interservice Support. Interservice support is provided by one DoD Component to
another DoD Component.

Military Interdepartmental Purchase Request (MIPR). A MIPR is an order issued by
the requesting organization to another Government organization to procure services,
supplies, or equipment for the requesting organization. The MIPR (DD Form 448) may
be accepted on a direct citation or reimbursable basis.

Negative Unliquidated Obligation (NULO). NULOs are transactions posted to the
accounting database that result in disbursements greater than obligations, stand-alone
disbursements, or credit obligations.
Obligation. An obligation is the result of an order placed, contract awarded, service
received, or similar transaction during a given period that will require payments during
the same or a future period.

Reimbursable Order. A reimbursable order is an order for supplies, material, or
equipment placed by a requesting DoD Component for procurement by another DoD
Component or Federal agency on a contract funded by the performing DoD Component
or Federal agency, without separate identification of the items, or separate citation of the
funds of the requesting DoD Component; and with subsequent delivery to and
reimbursement by the requesting DoD Component. The reimbursable order is recorded
as an obligation by the requesting DoD Component when the procuring DoD Component
accepts the reimbursable order in writing.

Standard Document Number (SDN). SDN is required for all obligations,
disbursement, and collection documents and will contain no more than 14 characters. All
documents processed through DFAS-IN managed accounting systems require a SDN.



                                             26
Standard Finance System (STANFINS). STANFINS is a fully automated Army-wide,
standard accounting system designed to provide accounting support and general ledger
control at Army installations.

Standard Operations and Maintenance Army Research and Development System
(SOMARDS). SOMARDS is the standard financial accounting and reporting system
that provides both Army and DFAS users an interactive mainframe system that stores all
types of financial data in hierarchical databases.




                                          27
Appendix D. Federal Laws and DoD Regulations

Federal Laws
    Federal Acquisition Regulation. FAR 1.601, “General,” January 12, 2004,
    states that, unless specifically prohibited by another provision of law, authority
    and responsibility to contract for authorized supplies and services are vested in
    the agency head. The agency head may establish contracting activities and
    delegate broad authority to manage the agency’s contracting functions to heads of
    such contracting activities. Contracts may be entered into and signed on behalf of
    the Government only by contracting officers. In some agencies, a relatively small
    number of high level officials are designated contracting officers solely by virtue
    of their positions. Contracting officers below the level of a head of a contracting
    activity shall be selected and appointed under FAR 1.603, “Selection,
    Appointment, and Termination of Appointment,” January 12, 2004.

    FAR Subpart 17.5, “Interagency Acquisitions Under the Economy Act,”
    March 2005, states that the Economy Act authorizes agencies to enter into mutual
    agreements to obtain supplies or services by interagency acquisitions as well as
    interservice acquisitions. Interagency acquisitions require a Determination and
    Finding to support each Economy Act order. However, there are limits to how
    Economy Act orders may be used.

       •   Economy Act orders may not be used to circumvent conditions and
           limitations imposed on the use of funds.

       •   Economy Act orders may not be used to make acquisitions conflicting
           with any other agency’s authority or responsibility.

       •   Acquisitions under the Economy Act are subject to the requirements of
           FAR Subpart 7.3.

    United States Code. 31 U.S.C. 1301, “Application,” January 19, 2004, states
    that appropriations shall be applied only to the objects for which the
    appropriations were made except as otherwise provided by law.

    31 U.S.C. 1341, “Limitations on Expending and Obligating Amounts,”
    January 19, 2004, states that an officer or employee of the Government may not:

       •   make or authorize an expenditure or obligation exceeding an amount
           available in an appropriation or fund for the expenditure or obligation, or

       •   involve the Government in a contract or obligation for the payment of
           money before an appropriation is made unless authorized by law.

    31 U.S.C. 1501, “Documentary Evidence Requirement for Government
    Obligations,” January 19, 2004, states that an amount shall be recorded as an




                                        28
     obligation of the Government only when supported by documentary evidence of a
     binding agreement between an agency and another person (including an agency)
     that is:

        •   in writing;

        •   in a way and form, and for a purpose authorized by law; and

        •   executed before the end of the period of availability for obligation of the
            appropriation or fund used for specific goods to be delivered, real property
            to be bought or leased, or work or service to be provided.

     31 U.S.C. 1502(a), “Balances Available,” January 19, 2004, states that the
     balance of an appropriation or fund limited for obligation to a definite period is
     available only for payment of expenses properly incurred during the period of
     availability or to complete contracts properly made within that period of
     availability and obligated consistent with Section 1501 of this title. However, the
     appropriation or fund is not available for expenditure for a period beyond the
     period otherwise authorized by law.

     31 U.S.C. 1535, “Agency Agreements,” January 19, 2004, sets forth the
     requirements regarding the use of agency agreements. It also states that an order
     or agreement obligates an appropriation of the ordering agency or unit.
     Furthermore, it allows the head of an agency to place an order within the same
     agency or another agency for goods or services if:

        •   amounts are available,

        •   it is in the best interest of the Government,

        •   the other agency can fill the order, and

        •   the order cannot be provided as conveniently or economically by contract
            with a commercial enterprise.

     National Archives and Records Administration. General Records Schedule 3,
     “Procurement, Supply, and Grant Records,” March 2006, details specific
     guidelines for retention of Federal procurement, supply, and grant records. It
     states that contract, requisition, and purchase order files exceeding $2,000 and
     dated on or after July 3, 1995, should be destroyed 6 years and 3 months after
     final payment. Other guidelines are listed for various types of documents with
     different dates and dollar values.

DoD Regulations
     Defense Federal Acquisition Regulation Supplement. DFARS Subpart 208.70,
     “Coordinated Acquisition,” June 21, 2005, prescribes the policy and procedures
     for acquisition of items for which contracting responsibility is assigned to one or
     more departments, agencies, or GSA. It also states that the DD Form 448-2 is the




                                          29
authority for a requesting organization to record an obligation for reimbursable
orders. For direct citation orders, the contract is the authority to record the
obligation.

DFARS 253.208, “Required Sources of Supplies and Services,” August 31, 2000,
prescribes the instructions for preparing DD Form 448, “Military
Interdepartmental Purchase Request,” and DD Form 448-2, “Acceptance of
MIPR.” It says that the requesting agency must clearly state the required period
of performance for each MIPR.

DoD Financial Management Regulation. DoD FMR, volume 3, chapter 8,
“Standards for Recording and Reviewing Commitments and Obligations,”
June 2005, provides policy regarding the management of and control over
commitments and obligations. It defines responsibilities of the accounting office
and fund holder regarding commitments and obligations and requires a tri-annual
review of commitments and obligations. Specifically, it states that in no instance
shall obligations be recorded any later than 10 calendar days following the day
that an obligation is incurred.

DoD FMR, volume 3, chapter 11, “Unmatched Disbursements, Negative
Unliquidated Obligations, In-Transit Disbursements, and Suspense Accounts,”
January 2001, states that DoD Components will work with DFAS to prevent
overexpenditures, which include NULOs.

DoD FMR, volume 5, chapter 11, “Disbursements,” February 2006, states that the
DD Form 577 shall be used to appoint and terminate all certifying officers. A
copy of a DD Form 577 must accompany the request for payment of a voucher on
behalf of another DoD Component disbursing office.

DoD FMR, volume 11A, chapter 3, “Economy Act Orders,” April 2000,
prescribes policies and procedures applicable to transactions where goods or
services are procured from other Federal agencies under the Economy Act. The
head of an organization may place an order for goods or services if funds are
available. The DoD typically executes Economy Act orders by issuing MIPRs.
However, there are limits to how Economy Act orders may be used.

   •   Economy Act orders may not be used to circumvent conditions and
       limitations imposed on the use of funds, including extending the period of
       availability of the cited funds.

   •   Economy Act orders may not be used to make acquisitions conflicting
       with any other agency’s authority or responsibility.

   •   Acquisitions under the Economy Act are subject to the requirements of
       FAR Subpart 7.3.

   •   Economy Act orders cannot be used by one organizational unit to order
       work or services from another organizational unit under the same
       organization commander if the commander is in a position to fund the
       required goods or services through the use of direct funds.



                                    30
The DoD FMR, volume 11A, chapter 3 also requires that all interagency
Economy Act orders must be supported by a Determination and Finding stating
that the use of interagency support is in the best interest of the Government and
that the required goods, supplies, or services cannot be obtained as conveniently
or economically by contracting directly with a commercial enterprise.
Organizations may enter into interservice agreements when it is in the best
interest of the Government and the performing organization can render the
support without jeopardizing its own assigned missions. Economy Act orders
should be specific, definite, and certain both as to the work encompassed by the
order and the terms of the order itself. An obligation is incurred by the requesting
organization upon acceptance of the order by the performing organization. Funds
should be deobligated by the end of the appropriation’s period of availability to
the extent that the performing organization has not provided the goods or services
or entered into an authorized contract with another organization to provide the
requested goods or services.

DoD FMR, volume 14, chapter 10, “Violations – Causes, Prevention, and
Correction,” October 2004, states the common causes of Antideficiency Act
violations, corrective procedures for occurrences, and preventive measures.

DoD Instruction. DoD Instruction 4000.19, “Interservice and Intragovernmental
Support,” August 9, 1995, implements policies, procedures, and responsibilities
for interagency and interservice support. Furthermore, DoD Instruction 4000.19
states that DoD organizations may enter into agreements with non-DoD federal
organizations when:

    •   funding is available to pay for the support,

    •   the agreement is in the best interest of the Government,

    •   the performing organization is able to provide the support,

    •   the support cannot be provided as conveniently or economically by a
        commercial enterprise, and

    •   the agreement does not conflict with any other agency’s authority.

DoD Instruction 4000.19 also states that DoD organizations shall provide
requested support to other DoD organizations when the agreement is in the best
interest of the Government, and the performing organization determines that
capabilities exist to provide the support without jeopardizing assigned missions.
The DoD Instruction also states that recurring interservice support that requires
reimbursement should be documented on DD Form 1144, “Support Agreement,”
or a similar form that contains all the information required on DD Form 1144.
Broad areas of recurring interservice support and cooperation that do not require
reimbursement should be documented with a Memorandum of Agreement or a
Memorandum of Understanding.




                                     31
Defense Finance and Accounting Service Regulation. DFAS-IN
Regulation 37-100-06, “Financial Management, The Army Management Structure
Fiscal Year 2006,” December 2005, provides specific guidelines for determining
the correct use of appropriations, the fiscal limitations of appropriations, and the
requirements for MIPR SDNs.




                                    32
Appendix E. MIPR Issues
The following tables summarize issues we identified during our review of MIPRs
located at DAO Aberdeen; PEO Soldier; DAO Secretary of the Army Financial
Operations; and Fort Belvoir. An “X” indicates the MIPR was deficient in the stated
area. An “A” indicates a potential Antideficiency Act violation.
                                                       Execution and Monitoring




                                                                                  Untimely Deobligations
                                                                                                                                                                                         1
                                                                                                                        0



                                                                                                                                          0




                                                                                                                                                                           1
                                                                                                                                                       0




                                                                                  Authorized Balance
                                                                                                                                                                                         18
                                                                                                                                                       10
                                                                                                                        2



                                                                                                                                          0




                                                                                                                                                                           6




                                                                                  Exceeded
                                                                                  Timely Obligations-Not
                                                                                                                                                                                         43
                                                                                                                                                                           16
                                                                                                                                                       18
                                                                                                                        9



                                                                                                                                          0




                                                                                  Recorded Within 10 Days
                                                                                  Validity of Obligations-

                                                                                                                                                                                         10
                                                                                                                                                       3
                                                                                                                        1



                                                                                                                                          0




                                                                                  Missing Documents                                                                        6
                                                                                  Fiscal Limits Not
                                                                                                                        0



                                                                                                                                          0



                                                                                                                                                       0



                                                                                                                                                                           2


                                                                                                                                                                                         2
                                                                                  Followed
                                                                                  No Clear Period of
                                                                                                                                          20



                                                                                                                                                       16



                                                                                                                                                                           16


                                                                                                                                                                                         52
        Table E-1. Outgoing MIPR Summary by FSN




                                                                                                                        0




                                                                                  Performance
                                                                                  No Clear Description of




                                                                                                                                                                                         18
                                                                                                                                                       10
                                                       Preparation




                                                                                                                        0



                                                                                                                                          1




                                                                                                                                                                           7
                                                                                  Supplies or Services
                                                                                  Incorrect Appropriation




                                                                                                                                                                                         4
                                                                                                                        0



                                                                                                                                          0



                                                                                                                                                       0



                                                                                                                                                                           4


                                                                                                                                                                                         37
                                                                                                                                                       12



                                                                                                                                                                           25
                                                                                  Funds Not Certified
                                                                                                                        0



                                                                                                                                          0
                                                                                  Unauthorized MIPR




                                                                                                                                                                                         37
                                                                                                                                                       12



                                                                                                                                                                           25
                                                                                                                        0



                                                                                                                                          0
                                                                                  Approval
                                                                                  Interservice-Missing




                                                                                                                                                                                         98
                                                  Initiatio




                                                                                                                                          20



                                                                                                                                                       36



                                                                                                                                                                           37
                                                                                                                        5
                                                                                  Required Document
                                                      n




                                                                                                                        0



                                                                                                                                          0



                                                                                                                                                       3
                                                                                  Interagency-Missing D&F




                                                                                                                                                                                         4
                                                                                                                                                                           1
                                                                                                                        $ 47,178,952



                                                                                                                                          88,679,348



                                                                                                                                                       467,896,389



                                                                                                                                                                           127,486,634


                                                                                                                                                                                         $731,241,323
                                                       MIPR Value
                                                  Reviewed
                                                   MIPRs




                                                                                                                                                                                         118
                                                                                                                        20



                                                                                                                                          20



                                                                                                                                                       39



                                                                                                                                                                           39
                                                                                                                                       the Army Financial
                                                                                                                                       FSN 19130 - PEO


                                                                                                                                       DAO Secretary of
                                                                                                                  DAO Aberdeen
                                                                                                                  FSN 18001 -




                                                                                                                                       FSN 23185 -




                                                                                                                                                                     FSN 44008 -



                                                                                                                                                                                         Total
                                                                                                                                                                     Fort Belvoir
                                                       FSN




                                                                                                                                       Operations
                                                                                                                                       Soldier
                                                                                                             33
                       Table E-2. DAO Aberdeen Outgoing MIPRs (FSN 18001)

       MIPR Number       MIPR Value       Initiation                                                   Preparation                                  Execution and Monitoring




                                          Interagency-Missing D&F

                                                                    Required Document
                                                                    Interservice-Missing
                                                                    Approval
                                                                    Unauthorized MIPR
                                                                                           Funds Not Certified

                                                                                                                 Incorrect Appropriation
                                                                                                                                           Supplies or Services
                                                                                                                                           No Clear Description of
                                                                                                                                           Performance
                                                                                                                                           No Clear Period of
                                                                                                                                           Followed
                                                                                                                                           Fiscal Limits Not
                                                                                                                                           Missing Documents
                                                                                                                                           Validity of Obligations-
                                                                                                                                           Recorded Within 10 Days
                                                                                                                                           Timely Obligations-Not
                                                                                                                                           Exceeded
                                                                                                                                           Authorized Balance
                                                                                                                                                                         Untimely Deobligations
     MIPR5KGYR51806         $ 7,931,234                                                                                                                        X
     MIPR5DEGYR52803          7,200,000                                                                                                                        X
     MIPR5EGYR51801           4,300,000
     MIPR5JGYR51101           3,000,000
34




     MIPR5BGYR50202          18,416,000                                                                                                                        X
     MIPR3AGYR33109              89,058                                X                                                                                       X     X
     MIPR5FGYR50116             200,900                                X
     MIPR3FGYR33140              72,000                                X
     MIPR5EGYR50537             340,225
     MIPR5DGYR50531              50,833                                                                                                                        X
     MIPR5AGYR50511             222,905
     MIPR5AGYR50509           1,734,484                                                                                                                        X
     MIPR5AGYR50101           1,000,000                                                                                                                        X
     MIPR5HGYR50124             200,000
     MIPR5JGYR50552              50,000                                X
     MIPR0GGYR00761             799,816                                                                                                                        X
     MIPR9GGYR90123              15,190                                                                                                                        X
     MIPR5FGYR50545              42,000                                X                                                                                 X           X
     MIPR5JGYR50556              80,000
     MIPR5DGYR52804           1,434,306
           20               $47,178,951           0                    5           0              0                      0                  0   0   0     1    9     2           0
                      Table E-3. PEO Soldier Outgoing MIPRs (FSN 19130)

       MIPR Number     MIPR Value      Initiation                                                    Preparation                                  Execution and Monitoring




                                       Interagency-Missing D&F
                                                                 Required Document
                                                                 Interservice-Missing
                                                                 Approval
                                                                 Unauthorized MIPR
                                                                                        Funds Not Certified

                                                                                                              Incorrect Appropriation
                                                                                                                                        Supplies or Services
                                                                                                                                        No Clear Description of
                                                                                                                                        Performance
                                                                                                                                        No Clear Period of
                                                                                                                                        Followed
                                                                                                                                        Fiscal Limits Not
                                                                                                                                        Missing Documents
                                                                                                                                        Validity of Obligations-
                                                                                                                                        Recorded Within 10 Days
                                                                                                                                        Timely Obligations-Not
                                                                                                                                        Exceeded
                                                                                                                                        Authorized Balance

                                                                                                                                                                       Untimely Deobligations
     MIPR5E1BRHOAKS      $ 8,334,212                               X                                                                         X
     MIPR5K1BRHCONV       10,081,600                               X                                                                         X
     MIPR5E1BRHSLPS       36,684,000                               X                                                                         X
35




     MIPR5A1BRHMICH       20,857,500                               X                                                                         X
     MIPR5D1BR00670        2,099,212                               X                                                                         X
     MIPR5E1BROPAXX        3,800,000                               X                                                                     X   X
     MIPR5K1BR01472              350                               X                                                                         X
     MIPR5C1BATAPS3        5,782,669                               X                                                                         X
     MIPR5A1BRBBAG2           20,283                               X                                                                         X
     MIPR5L1BATCACU           37,138                               X                                                                         X
     MIPR5BOTCD5612          128,955                               X                                                                         X
     MIPR5H1BR01160           43,000                               X                                                                         X
     MIPR5BNVLD5610          300,000                               X                                                                         X
     MIPR5FCHPT5223            3,194                               X                                                                         X
     MIPR5A1BRHOVHD              865                               X                                                                         X
     MIPR4M1BR02000           50,000                               X                                                                         X
     MIPR4A1BR01906          298,000                               X                                                                         X
     MIPR4G1BR00938           68,400                               X                                                                         X
     MIPR5A1BR00045           74,970                               X                                                                         X
     MIPR4FBRBARRYH           15,000                               X                                                                         X
            20           $88,679,348           0                   20          0              0                       0                  1   20   0    0     0    0           0
      Table E-4. DAO Secretary of the Army Financial Operations Outgoing MIPRs (FSN 23185)

       MIPR Number      MIPR Value       Initiation                                                 Preparation                                    Execution and Monitoring




                                         Interagency-Missing D&F

                                                                   Required Document
                                                                   Interservice-Missing
                                                                   Approval
                                                                   Unauthorized MIPR
                                                                                          Funds Not Certified

                                                                                                                Incorrect Appropriation
                                                                                                                                          Supplies or Services
                                                                                                                                          No Clear Description of
                                                                                                                                          Performance
                                                                                                                                          No Clear Period of
                                                                                                                                          Followed
                                                                                                                                          Fiscal Limits Not
                                                                                                                                          Missing Documents
                                                                                                                                          Validity of Obligations-
                                                                                                                                          Recorded Within 10 Days
                                                                                                                                          Timely Obligations-Not
                                                                                                                                          Exceeded
                                                                                                                                          Authorized Balance

                                                                                                                                                                        Untimely Deobligations
     MIPR6AAXA4BA01       $142,677,958                                X          X            X                                                              X
     MIPR6AMCBJ9006        145,000,000                                X                                                                                      X
     MIPR5FASCE7080          2,862,834                                X          X            X                                                                    X
36




     MIPR2EAXA4WN13             20,795                                X          X            X                                                              X
     MIPR3FR1HE0065            435,000        X                                                                                                              X
     MIPR5DHDPW0002              9,399                                X          X            X
     MIPR4GAMSCLB13          1,053,942                                X          X            X
     MIPR5CIEDJ8018            118,000                                X
     MIPR3FRNLG4058             98,400        X                                  X            X                                                              X
     MIPR4CLTDL6001          1,892,693                                X          X            X                                                              X
     MIPR4BAXA4BG07            146,681                                X          X            X                                            X   X
     MIPR5GNP5B3013            546,221                                X                                                                                 X
     MIPR3HBELG4090            233,903                                X          X            X                                            X   X                   X
     MIPR5EAXA4BN13            399,547                                X          X            X                                            X   X             X     X
     MIPR4KR1AL0158            159,992                                X                                                                    X
     MIPR3DR1JS0042              2,452                                X                                                                                      X
     MIPR6BARBJ9058        105,000,000                                X                                                                    X
     MIPR6BSWBJ9032         61,000,000                                X                                                                    X                 X
     MIPR5AACPN8A01            596,959                                X          X            X                                                                    X
     MIPR4FR1JS0084            850,000        X                                                                                            X   X
            20            $463,104,776        3                      17         11         11                           0                  7   4   0    1     9    4           0
      Table E-5. DAO Secretary of the Army Financial Operations Outgoing MIPRs (FSN 23185)
                      (MIPRs originally classified as incoming, later determined to be outgoing)
       MIPR Number       MIPR Value        Initiation                                                    Preparation                                  Execution and Monitoring




                                           Interagency-Missing D&F

                                                                     Required Document
                                                                     Interservice-Missing
                                                                     Approval
                                                                     Unauthorized MIPR

                                                                                            Funds Not Certified

                                                                                                                  Incorrect Appropriation

                                                                                                                                            Supplies or Services
                                                                                                                                            No Clear Description of
                                                                                                                                            Performance
                                                                                                                                            No Clear Period of
                                                                                                                                            Followed
                                                                                                                                            Fiscal Limits Not
                                                                                                                                            Missing Documents
                                                                                                                                            Validity of Obligations-
                                                                                                                                            Recorded Within 10 Days
                                                                                                                                            Timely Obligations-Not
                                                                                                                                            Exceeded
                                                                                                                                            Authorized Balance

                                                                                                                                                                           Untimely Deobligations
     MIPR3MAMSCLB20          $ 12,070                                  X                                                                         X
     MIPR5FDLS00007           1,612,171                                X                                                                         X              X     X
     MIPR5FDLS00008              48,516                                X                                                                         X              X
     MIPR5FDLS00009             306,821                                X                                                                         X              X     X
37




     MIPR1MDPWDL127               7,376                                X                                                                     X   X
     MIPR2HDISDL039              10,074                                X                                                                     X                  X
     MIPR6FDLS00008              21,858                                X                                                                         X
     MIPR2LASGDL085               1,500                                X                                                                                        X
     MIPR1MDOSDL117               1,471                                X                                                                     X
     MIPR4MDLSC0001             162,153                                X                                                                         X              X     X
     MIPR2LTCEDL096               1,000                                X
     MIPR5FDLS00010             574,981                                X                                                                         X                    X
     MIPR1MAITDL133                 712                                X                                                                         X
     MIPR2LMIADL086               1,500                                X
     MIPR5MDLSC0003              32,567                                X                                                                         X         X    X
     MIPR5MDLSC0001             165,314                                X                                                                         X              X     X
     MIPR3LAETDL080             120,958                                X           X            X
     MIPR4FDLS00007           1,637,045                                X                                                                         X         X    X     X
     MIPR1MDISDL116              73,527                                X
            19              $4,791,614             0                   19           1             1                       0                  3   12   0    2    9     6           0
                      Table E-6. Fort Belvoir Outgoing MIPRs (FSN 44008)
                        An “A” indicates a potential Antideficiency Act violation.
       MIPR Number     MIPR Value     Initiation          Preparation              Execution and Monitoring




                                       Interagency-Missing D&F
                                                                 Required Document
                                                                 Interservice-Missing
                                                                 Approval
                                                                 Unauthorized MIPR
                                                                                        Funds Not Certified

                                                                                                              Incorrect Appropriation

                                                                                                                                        Supplies or Services
                                                                                                                                        No Clear Description of
                                                                                                                                        Performance
                                                                                                                                        No Clear Period of
                                                                                                                                        Followed
                                                                                                                                        Fiscal Limits Not
                                                                                                                                        Missing Documents
                                                                                                                                        Validity of Obligations-
                                                                                                                                        Recorded Within 10 Days
                                                                                                                                        Timely Obligations-Not
                                                                                                                                        Exceeded
                                                                                                                                        Authorized Balance

                                                                                                                                                                   Untimely Deobligations
     MIPR5ACLS12351     $ 30,064,765                                X
     MIPR5ACLS23004       18,841,379                                X
     MIPR5CQYTP0006        7,999,996                                X          X            X                                            X   X
38




     MIPR5MALTRB062            1,750                                X
     MIPR5HQYTP0027          440,000                                X          X            X                                            X   X
     MIPR5FAEDRB045            1,500                                X                                                                                    X
     MIPR5HITCQM809          502,775                                X          X            X                                                        X
     MIPR5ATNGRB004              800                                X                                                                                    X
     MIPR5AQUMA0001          991,847                                X          X            X                                                X                X
     MIPR4HATRRB025          100,000                                X
     MIPR0ACLS26006        3,775,364                                X                                                                            A       X              X
     MIPR5GFEBQ3502          214,300                                X          X            X                                            X   X           X    X
     MIPR5EAIARB028           66,000                                X
     MIPR5MQ8AA0003        2,284,749                                X          X            X                                                X
     MIPR5AQ8AA0006        1,607,160                                X          X            X
     MIPR4ACLS23003       26,374,161                                X                                                                                    X
     MIPR4ACLS20003        2,339,096
     MIPR2ACLS23005       22,048,910                               X                                                                                     X
     MIPR5AFMOQ3102            7,419                               X           X            X                      A                         X       X   X    X
     MIPR1ACLS20003        4,471,458                               X
            20          $122,133,429           0                   19          8              8                       1                  3   6   1   2    7   3            1
                        Table E-7. Fort Belvoir Outgoing MIPRs (FSN 44008)
                      (MIPRs originally classified as incoming, later determined to be outgoing)
                           An “A” indicates a potential Antideficiency Act violation.
      MIPR Number        MIPR Value        Initiation                                                   Preparation                                   Execution and Monitoring




                                           Interagency-Missing D&F

                                                                     Required Document
                                                                     Interservice-Missing
                                                                     Approval
                                                                     Unauthorized MIPR

                                                                                            Funds Not Certified

                                                                                                                  Incorrect Appropriation

                                                                                                                                            Supplies or Services
                                                                                                                                            No Clear Description of
                                                                                                                                            Performance
                                                                                                                                            No Clear Period of
                                                                                                                                            Followed
                                                                                                                                            Fiscal Limits Not
                                                                                                                                            Missing Documents
                                                                                                                                            Validity of Obligations-
                                                                                                                                            Recorded Within 10 Days
                                                                                                                                            Timely Obligations-Not
                                                                                                                                            Exceeded
                                                                                                                                            Authorized Balance

                                                                                                                                                                           Untimely Deobligations
     MIPR05OSAAR001          $ 230,415                                  X
     MIPR5CCECQM800             360,276                                 X          X            X                                            X   X              X
39




     MIPR5DQPTK0004             985,455                                 X          X            X                                                               X
     MIPR5HCLS26DJ1             964,481                                 X
     MIPR2CAISQM502             223,877                                 X         X          X                                                   X              X
     MIPR5HASCP0004             124,892                                 X         X          X
     MIPR4FFMOQ3809              63,500                                 X         X          X                         A                         X                    X
     MIPRLOGPMSSFY5             723,748                                 X         X          X                                                   X         X    X
     MIPR5ASPS00002               5,040                                 X         X          X
     MIPR3LQYTA0015             147,536                                 X         X          X                                                   X                    X
     MIPR5HASAQM126              76,654                                 X         X          X                                               X   X
     MIPR5BITCQ3103             120,446                                 X         X          X                         A                     X   X         X
     MIPR5ASPS00001              27,587                                 X         X          X                                                                  X     X
     MIPR3JISCQM826              82,432                                 X         X          X                                                   X
     MIPR5ASPSR0003             374,298                                 X         X          X                                                             X    X
     MIPR4LODAQ3024              60,000                                 X         X          X                         A                     X   X
     MIPR2CAISQM507              22,112                                 X         X          X                                                        X    X    X
     MIPR3JNTHQM021              40,707         X                                 X          X                                                   X              X
     MIPR5ASPSR0004             719,750                                X          X          X                                                                  X
             19              $5,353,206            1                   18         17         17                           3                  4   10   1    4    9     3            0
 Table E-8. DAO Aberdeen Incoming MIPRs
               (FSN 18001)

                                  Unauthorized
  MIPR Number     MIPR Value
                                   Acceptance
MIPR5KSAPO5324      $ 7,931,234
MIPR5BASPCQ342        7,200,000
MIPR5DASPCQ353        5,300,000
W25D215691RW          3,900,000
FX23990000318         2,291,015
N3497B04MPNT701         120,800
MIPRA804F89R254          39,448
MIPR5BUSATA007          217,000
MIPRST00F89R410          79,000
DD44809N400376          672,504
MIPR4EASPCQ249        7,000,000
DD44809N400325        1,565,019
MIPR0FSPACE059          600,000
NMIPR8650205            770,000
MIPR5AASPCQ326        1,875,000
0000000N0406389          20,740
NMIPR05250073           100,000
MIPR5KASPAPA41          140,729
MIPR5JASP00043           15,595
NMIP8640175             742,000
        20         $40,580,084         0




                   40
   Table E-9. PEO Soldier Incoming MIPRs
                (FSN 19130)
                                         Unauthorized
  MIPR Number           MIPR Value
                                          Acceptance
MIPR4E1BR00002             $ 6,104,000        X
MIPR4JMNSTC094               2,388,510
MIPR5C1BR00404               5,906,000        X*
MIPR6B1BR00233               5,870,396        X
PI49L793JZ                  36,657,057        X
MIPR5A1BR00124               2,029,038        X
MIPR4A1BR00001               2,254,495        X
FD20600480608M                 986,187
X15GX034X1X1                 3,537,502        X
MIPR3CPIC01846                 400,000        X
FD20600480587M               2,065,357
MIPR6A1BR00001               2,279,654        X
MIPR5B1BR00316                 489,000        X
MIPR5MSSLD5627                  25,000        X
BU4GFF21BU                     283,089
MIPR5H1BRHPAY
                                              X
X                             469,362
MIPR3CPIC01849                106,000         X
MIPR5A1BR00130              1,808,658         X
M9545005MP0228              4,382,000
MIPR5BSEQT4692              2,200,000         X
        20                $80,241,305         15
* MIPR with contractor signed DD Form 448-2




                          41
 Table E-10. DAO Secretary of the Army Financial
     Operations Incoming MIPRs (FSN 23185)
                                       Unauthorized
    MIPR Number        MIPR Value
                                        Acceptance
MIPR5M6AAMSC96              $950,000
        1                   $950,000        0




     Table E-11. Fort Belvoir Incoming MIPRs
                   (FSN 44008)

                                       Unauthorized
    MIPR Number        MIPR Value
                                        Acceptance
MIPR4ESPS00005               $18,448        X
          1                  $18,448        1




                       42
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
Auditor General, Department of the Army

Other Defense Organization
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                          43
Assistant Secretary of the Army (Financial
Management and Comptroller) Comments




                       45
Program Executive Office Soldier Comments




                     46
Army Space Program Office Comments




                    47
48
49
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Carmelo G. Ventimiglia
Stephen C. Borushko
Craig W. Zimmerman
Dale E. Coy
Michael B. Vandesteene
Virginia M. Peyla
Michael G. Jarvis
